Case:

Date Filed: 05/28/2020
i

J

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-30332
DEMARCUS CLARK,
Petitioner-Appellant
v.

DARREL VANNOY, WARDEN, LOUISIANA STATE PENITENTIARY,
Respondent-Appellee
Appeal from the United States District Court
for the Western District of Louisiana
ORDER:
Demarcus Clark, Louisiana prisoner# 587170, moves for a certificate of
appealability (COA) to appeal the district court’s denial of his 28 U.S.C. § 2254
application challenging his conviction for armed robbery. Clark argues that
the prosecution impermissibly substituted the testimony of the DNA
examining analyst with another witness and asserts that Bullcoming v. New
Mexico, 564 U.S. 647 (2011), requires the prosecution to provide testimony of
the forensic examiner actually performing the testing in order to satisfy the
Confrontation-Clause of the Sixth Amendment. - He- also asserts that trial
counsel was ineffective for failing to object to this testimony, for failing to
conduct an investigation, and for failing to call witnesses or preserve their
statements. Clark does not renew his claim that trial counsel was ineffective

Case: 19-30332

Document: 00515432568

Page: 2

Date Filed: 05/28/2020

No. 19-30332
for misrepresenting her criminal trial experience; that issue is abandoned. See
Hughes v. Johnson, 191 F.3d 607, 613 (5th Cir. 1999).
In order to obtain a COA, Clark must make “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); see Slack v. McDaniel,
529 U.S. 473, 483-84 (2000). Where the district court denies relief on the
merits, an applicant must show that reasonable jurists “would find the district
court’s assessment of the constitutional claims debatable or wrong.” Slack, 529
U.S. at 484. An applicant satisfies the COA standard “by demonstrating that
jurists of reason could disagree with the district court’s resolution of his
constitutional claims or that jurists could conclude the issues presented are
adequate to deserve encouragement to proceed further.” Miller-El v. Cockrell,
537 U.S. 322, 327 (2003). Clark has not met this standard.
Accordingly, his motion for a COA is DENIED.

/s/ Jennifer Walker Elrod
JENNIFER W. ELROD
UNITED STATES CIRCUIT JUDGE

A True Copy
Certified order issued May 28,2020

dcA W. OtMjO.
Clerk, U.S. Court of Appeals, Fifth Circuit

2

Case 5:15-cv-02834-EE|

^yof l PagelD#: 2959
i

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF LOUISIANA
SHREVEPORT DIVISION
DEMARCUS CLARK #587170

CIVIL ACTION NO. 15-cv-2834

VERSUS

JUDGE FOOTE

N. BURL CAIN

MAGISTRATE JUDGE HORNSB Y
JUDGMENT

For the reasons assigned in the Report and Recommendation of the Magistrate Judge
previously filed herein, and having thoroughly reviewed the record, including the written
objections filed, and concurring with the findings of the Magistrate Judge under the
applicable law;
It is ordered that Petitioner’s petition for writ of habeas corpus is denied
Rule 11 of the Rules Governing Section 2254 Proceedings for the U.S. District
Courts requires the district court to issue or deny a certificate of appealability when it enters
a final order adverse to the applicant. The court, after considering the record in this case
and the standard set forth in 28 U.S.C. Section 2253, denies a certificate of appealability
because the applicant has not made a substantial showing of the denial of a constitutional
right.
THUS DONE AND SIGNED at Shreveport, Louisiana, this the
of

£d

day

, 2019.
ELIZ^BEpPETFOOTE
UNITED ST^rtiS DISTRICT JUDGE

1

a

Case 5:15-cv-02834|

1 of 20 PagelD#: 2919

j
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF LOUISIANA
SHREVEPORT DIVISION
DEMARCUS CLARK #587170

CIVIL ACTION NO. 15-cv-2834

VERSUS

JUDGE FOOTE

N. BURL CAIN

MAGISTRATE JUDGE HORNSBY

<1

REPORT AND RECOMMENDATION
Introduction
A Caddo Parish jury convicted Demarcus Clark (“Petitioner”) of armed robbery,
and he was sentenced to serve 60 years. The conviction and sentence were affirmed on
appeal. State v. Clark. 107 So.3d 644 (La. App. 2d Cir. 2012), writ denied, 113.So.3d 210
(La. 2013). He also pursued a post-conviction application in state court. Petitioner now
seeks federal habeas corpus relief based on (1) an alleged Confrontation Clause violation
in connection with the admission of a DNA report and related testimony and (2) claims of
ineffective assistance of counsel. For the reasons that follow, it is recommended that his .
petition be denied.
Facts
On July 1,2008, at around 3:00 a.m., a Pontiac Bonneville, later determined to have
been stolen, entered the parking lot of the Ace in the Hole Casino at.the Relay Station,
located on Highway 1 in south Caddo Parish. The only persons inside the casino were an
unarmed security guard and a casino employee. Three men got out of the Bonneville and
entered. A fourth man remained in the car. The three men who entered were completely

*Case 5:15-cv-02834-EEF-MLH Document 36 Filed 12/11/18 Page 2 of 20 Page! D #: 2920

covered by masks or bandanas, and they wore latex gloves. One wore a paintball mask
and carried a silver handgun. The second wore a paintball mask and carried an AK-47.
The third man, later determined to be Petitioner, wore a bandana over his face and carried
a black handgun.
Petitioner worked as a security guard at the casino. A few days before the robbery,
he told a casino bartender that the unarmed guards would make the place easy to rob.
Petitioner knew where the money was located in the cash register, a separate drawer
underneath liquor bottles, and in a small safe in the back room. He knew that most of the
money was not in the safe but instead in a backroom cabinet called “the cage” that could
be accessed with the bartender’s keys. A detective testified that it would not be obvious to
a visitor that either the drawer or the cage was a place money would be kept.
Surveillance video showed that Petitioner entered the casino and immediately
locked the outside door. One robber held the security guard on the floor with the AK-47
pointed into his back. The robber with the silver handgun pointed his weapon at the clerk
and asked her about the keys, cash drawers, and the back room. The clerk cooperated and
dropped her keys. Petitioner swept cash from the drawer and the cash register into a bag.
He went to the back room and immediately emptied the cage, grabbed the safe, and took it
and the bag of money to the car. The two employees were tied up and had their mouths
taped. The entire robbery, which netted over $20,000-in,cash,Jook.about.five minutes.
Petitioner did not return to work after the robbery.
Police found the Bonneville abandoned a short distance away, and it contained latex
gloves, masksclothes-- and_the security guard’s cell phone. Fingerprints found in the car
Page 2 of 20

.4.

' Case 5:15-cv-02834-EEF-MLH Document 36 Filed 12/11/18 Page 3 of 20 PagelD #: 2921

led to the arrest of Shacory Bell, who was later convicted of participating in the robbery.
A detective interviewed Petitioner after finding out that he had been a security guard at the
casino. The detective suspected the robbers had military training, based on his own
military training and the precision and tactics he saw in the operation. Petitioner said he
had served in the Marine Reserves and received urban warfare training. Petitioner refused
to voluntarily provide a DNA sample or fingerprints, and he said he had been asleep at his
girlfriend’s apartment on West 70th Street at the time of the crime. When Petitioner was
alone in the interview room, a hidden camera recorded him searching for recording devices,
calling his mother to ask that she say she told him not to give DNA or fingerprints, and
using a tissue to clean the rim of a cup he had used and the Miranda waiver form that he
touched.

The detective later obtained a warrant and collected a DNA sample and

fingerprints.
The investigation soon led to the arrest of Michael Smith. He confessed and testified
at Petitioner’s trial that he was the getaway driver. Smith said that he knew two of the
other men before the robbery, and one of them was the contact with Petitioner. Smith said
that Petitioner planned the robbery and insisted that he would be the one to gather the
money because he had worked at the casino. Petitioner had also been the one to instruct
everyone to take off their masks, bandanas, and gloves and leave them in the Bonneville,
which-turned out to -be-a-flaw-in-the-plan^T-hey-moved the .money-and.safe_toJletitioner.ls_
car and drove it to his sister’s house, where they later divided the money.
Deputies had found the Bonneville hours after the robbery. Fingerprints recovered
from items insidefthefear belonged to Shacory Bell and Michael Smith, but no fingerprints
Page 3 of 20

1 Case 5:15-cv-02834-EEF-MLH Document 36 Filed 12/11/18 Page 4 of 20 PagelD #: 2922

for Petitioner or the fourth man were found. The masks, gloves, and other items were
collected. Petitioner’s DNA was found on a latex glove. A paintball mask contained DNA
for Petitioner, Bell, and Jackson (the fourth man).
Petitioner told detectives that he had been at his girlfriend’s house asleep at the time
of the robbery. His cell phone records, however, indicated that he placed 13 calls just prior
to the robbery. Smith testified that Petitioner made several calls on the way to the casino.
Records show that Petitioner’s last call before the robbery was made from less than a mile
from the casino. Petitioner testified at trial and denied his involvement in the crime or
knowing the other men. He admitted that he told some people that the casino would be
easy to rob. He said that he had given away some latex gloves that were left over from a
former exterminator j ob.
Confrontation Clause Claim
A. Background Facts
More than six months before trial, the state served the defense with a copy of a
certified lab report from North Louisiana Crime Lab and stated its intent to offer the report
into evidence pursuant to La. R.S. 15:499-501. Tr. 1952-66. The statutes provided that a
defendant served with such notice could request that the “person making the examination
or analysis” be required to appear for trial to testify and be cross-examined. Otherwise,
- the court ■ could receive the certificate -in- evidence as primaTacie,proof-Of_the_facts_shown
in it.
Audra Williams, a forensic DNA analyst with the crime lab, was accepted without
objection as anlexpert-in DNA^ analysis;

She testified-about her education and

Page 4 of 20

Case 5:15-cv-02834-EEF-MLH Document 36 Filed 12/11/18 Page 5 of 20 PagelD #: 2923

qualifications. She had been accepted as an expert in other courts, and she conducted
technical reviews of DNA analysis performed by other members of her lab. She identified
the report, and it was admitted into evidence. The report reflected that DNA taken from a
piece of a latex glove and the interior of a paintball mask, both found in the abandoned
getaway car, contained Petitioner’s DNA. Ms. Williams explained that the analyst who
did the underlying testing no longer worked at the lab, but Williams “wrote the report”
after reviewing the analyst’s notes, pictures, and personal notes in the case folder. Williams
said that she “actually took ownership of the case when [the other analyst] left, and I
reviewed her notes, wrote the report, and somebody had to come along and review my
report and her notes as well.” She emphasized, “I wrote the report.” The report is labelled:
“Analyzed By: Audra Williams.”
A cutting of several inches of the glove material was tested on both sides. Ms.
Williams testified that one side of the glove showed a DNA profile that was a mixture of
two persons, a major and a minor. Petitioner’s DNA could not be excluded as the major
contributor. The odds that the DNA came from someone other than Petitioner are 1 in 192
trillion. The other side of the glove contained a similar mixture. Petitioner’s DNA could
not be excluded as the major contributor of that sample, with a 1 in 50.9 trillion probability
that the DNA came from someone else. The sample of the nose area of a paintball mask
was a mixture of DNA-from Petitioner and-two other men-who.participated.in the robbery
Those men could not be excluded as the source of the DNA, but 99.7% of the world’s
population could be excluded. Williams testified that it was her expert opinion that the

Page 5 of 20

‘ Case 5:15-cv-02834-EEF-MLH Document 36 Filed 12/11/18 Page 6 of 20 PagelD #: 2924

DNA on the glove came from Petitioner, and he could not be excluded as a contributor to
the DNA on the mask.
Petitioner argues in his federal petition that the state violated his Sixth Amendment
Confrontation Clause rights by using “invalid and false certified certificate of analysis
(DNA Report) through the inadequate, hearsay and false in court testimony of surrogate
DNA analyst at his trial.” He complains that Ms. Williams did not personally perform or
observe the underlying testing, and only testimony from the former employee who
conducted that work would satisfy the Confrontation Clause. A review of the state court
decisions, and application of the AEDPA standards, show that the claim lacks merit.
B. State Court Decisions
Petitioner argued on direct appeal that the evidence was insufficient to support his
conviction. Part of that, argument was that evidence of guilt would be lacking if trial
counsel had objected to Ms. Williams’ testimony and obtained the exclusion of both her
testimony and the lab report. The appellate court held that any objection to the sufficiency
of the lab report under the state statutes was waived because trial counsel did not make a
contemporaneous objection to the admission of the report on those grounds. Furthermore,
the court held, the other evidence presented was sufficient to support the verdict.
Appellate counsel next argued that trial counsel was ineffective for not objecting to
-Ms: Williams’ DNA-testimony. Petitioner/iled a pro se.briefthat_made_similar arguments
and asserted that the lack of objection to hearsay testimony from Williams violated his
Confrontation Clause rights. The appellate court reviewed applicable law, including
Melendez-Diaz v. Massachusetts;-T29 S.Ct. 2527 (2009), which struck down a state system
Page 6 of 20

Case 5:15-cv-02834-EEF-MLH Document 36 Filed 12/11/18 Page 7 of 20 PagelD #: 2925

that allowed admission of a lab report without an opportunity to cross-examine the analyst.
Melendez-Diaz noted, however, that notice-and-demand statutes could satisfy
Confrontation Clause rights. Id. at 2541. The appellate court also noted that Bullcoming
v. New Mexico. 131 S.Ct. 2705,2718 (2011) stated that notice-and-demand procedures in
effect in many jurisdictions can render otherwise hearsay reports admissible, while
preserving a defendant’s right to demand that the prosecution call the author of the report.
The Louisiana Supreme Court has held that the Louisiana statutes are constitutional under
those rules. State v. Simmons. 78 So.3d 743 (La. 2012); State v. Cunningham, 903 So.2d
1110 (La. 2005).
The state appellate court found that the state had followed the proper statutory
procedure, and trial counsel had not demanded that the testing analyst testify. Furthermore,
the State did not rely solely on the lab report. It called Williams as an expert witness.
Williams offered her own opinion based on the lab reports and other materials. The
appellate court concluded that Petitioner did not show that defense counsel failed to provide
an acceptable standard of performance, and he could not show prejudice because the other
evidence was sufficient to support his conviction.
Petitioner asserted a claim in his post-conviction application that his Sixth
Amendment right to confrontation was violated due to cumulative errors by the prosecutor
and defense counsel that-allowed the introduction of .the .certificate of analysis and Ms.
Williams’ in-court testimony. Tr. 1869. The trial court treated this and all other claims as
being claims for ineffective assistance of counsel and denied them as repetitive,
considering that-an-ineffective assistance claim was raised on direct appeal. Tr. 1976. The
Page 7 of 20

V
' Case 5:15-cv-02834-EEF-MLH Document 36 Filed 12/11/18 Page 8 of 20 PagelD #: 2926

appellate court and Supreme Court of Louisiana summarily denied writ applications. Tr.
2173,2210.
C. Habeas Burden
On direct appeal, the state appellate court reviewed Petitioner’s Confrontation
Clause argument, within the context of sufficiency and ineffective assistance claims, and
denied the arguments on the merits. Habeas corpus relief is available with respect to a
claim that was adjudicated on the merits in the state court only if the adjudication (1)
resulted in a decision that was contrary to, or involved an unreasonable application of,
clearly established federal law, as determined by the Supreme Court of the United States
or (2) resulted in a decision that was based on an unreasonable determination of the facts
in light of the evidence presented in the state court proceedings. 28 U.S.C. § 2254(d).
Under our system of dual sovereignty, state courts have inherent authority, and are
thus presumptively competent, to adjudicate claims arising under the laws of the United
States. Burt v. Titlow. 134 S. Ct. 10, 15 (2013). “Recognizing the duty and ability of our
state-court colleagues to adjudicate claims of constitutional wrong, AEDPA erects a
formidable barrier to federal habeas relief for prisoners whose claims have been
adjudicated in state court.” Id. 134 S.Ct. at 19. “A state court's determination that a claim
lacks merit precludes federal habeas relief so long as ‘fairminded jurists could disagree ’on
the correctness of the state-court’s-decision.” Harrington-V—Richter,_1.3_l_S._Ct.-7_70,_7.86
(2011). “If this standard is difficult to meet, that is because it was meant to be.” Id.

Page 8 of 20

Case 5:15-cv-02834-EEF-MLH Document 36 Filed 12/11/18 Page 9 of 20 PagelD #: 2927

D. Habeas Analysis
The State raises a procedural bar defense, but the undersigned finds it more
straightforward to address the claim on the merits. Glover v. Hargett. 56 F.3d 682, 684 n. 1
(5th Cir. 1995) (the court may decline to address, whether a claim is procedurally barred
when the claim fails on the merits). The merits resolution is a simpler path. Federal district
courts have rejected habeas claims that the admission of lab reports under the Louisiana
notice-and-demand system violated Confrontation Clause rights. White v. Cain, 2016 WL
4531123, *5 (W.D. La. 2016) (Hornsby, M.J.) (collecting cases). With respect to Ms.
Williams testifying instead of the person who performed the underlying lab work, the Fifth
Circuit has recently rejected a similar habeas claim. Grim v. Fisher. 816 F.3d 296 (5th Cir.
2016).
The legal background for Grim is Bullcoming, where the analyst who performed a
blood-alcohol analysis had been placed on unpaid leave by the time of trial.

The

prosecution called another scientist who did not observe or review the suspended person’s
analysis, and the scientist testified in his place. The prosecution proposed to introduce the
report as a business record. Bullcoming held that the substitute scientist’s testimony did
not satisfy the Confrontation Clause even though the scientist might qualify as an expert
witness in the field. He could not convey what the original technician knew or observed
—about the-testing,-and- he-had no knowledge-of why that.technicianJiadJheen .placed on
unpaid leave.

Nor did the prosecution assert that the testifying scientist had any

independent opinion concerning the defendant’s blood-alcohol content.

Page 9 of 20

Case 5:15-cv-02834-EEF-MLH Document 36 Filed 12/11/18 Page 10 of 20 PagelD #: 2928

Grim presented a Mississippi prosecution for the sale of cocaine. Mr. Fernandez
was the analyst who performed the testing of the substance and concluded that it was
cocaine, but he did not testify. Mr. Frazure, a technical reviewer who neither observed nor
participated in the testing of the substance, testified instead. Mr. Frazure testified that he
did not physically analyze the item of evidence.

Instead, Mr. Fernandez had used

equipment to test the substance and generate a work packet that contained the results.
Frazure then reviewed the work packet to ensure that Fernandez had done the proper tests
for that kind of evidence, reviewed the results of the tests, and signed off on them after
determining that the proper procedures had been followed.
Mr. Grim’s case reached the federal court on a habeas petition, where the petitioner
must meet a heavy burden under Section 2254(d). A claim such as presented by Mr. Grim
and Petitioner must show that the state court’s decision was contrary to, or involved an
unreasonable application of, clearly established federal law, as determined by the Supreme
Court of the United States. The Supreme Court has explained that “clearly established
Federal law, as determined by the Supreme Court,” as specified in § 2254(d)(1), “includes
only the holdings, as opposed to the dicta, of this Court’s decisions.” Woods v. Donald,
135 S. Ct. 1372,1376(2015). Federal circuit precedent does not suffice. Keman v. Cuero,
138 S. Ct. 4, 9 (2017). “Nor, of course, do state-court decisions, treatises, or law review
articles.’—Idr
The district judge in Grim granted habeas relief.

The Fifth Circuit reviewed

Bullcoming and related decisions, applied Section 2254(d), and reversed the district court.
It held that-Bullcoming^didrnot-clearly establish the categorical rule that when the
Page 10 of 20

Case 5:15-cv-02834-EEF-MLH Document 36 Filed 12/11/18 Page 11 of 20 PagelD #: 2929

prosecution introduces a forensic laboratory report containing a testimonial certification,
the only witness whose in-court testimony can satisfy the Confrontation Clause is the
analyst who performed the underlying analyses contained in the report. Grim. 816 F.3d at
307.

“Bullcoming does not clearly establish what degree of involvement with the forensic
testing, beyond what was present in Bullcoming, is required of a testifying witness.” Id.
The Fifth Circuit noted the concurring opinion in Bullcoming from Justice Sotomayor,
which provided the necessary fifth vote, where she stated that it would be a different case
if a supervisor who observed an analyst conducting a test testified about the results. There
have also been decisions from the Fifth Circuit and other circuit courts that have observed
that it is not clear whether or when testimony from another member of a lab may testify
about the test results. “Widespread disagreement among courts regarding Bullcoming
further supports the conclusion that the Supreme Court has not clearly established what
degree of involvement with the forensic testing is required of an in-court witness offered
to prove a particular fact in a testimonial certification, beyond what was deemed
insufficient in Bullcoming.” Grim, 816 F.3d at 309.
Bullcoming did not clearly establish that Mr. Grim was entitled to habeas relief, so
Grim’s petition was denied. The same is true with respect to Petitioner. Ms. Williams did
-not-merely-introduce-the. lab-report.into.evidence. .She described_how_she_acted as a
technical reviewer in the lab, much as Mr. Frazure did in Grim, and she actually wrote and
signed off on the report at issue. She also offered her own expert opinions, as opposed to
merely parroting-what-was frn-a-report - prepared by-someone else.- -Thereds no-clearly ----Page 11 of 20

Case 5:15-cv-02834-EEF-MLH Document 36 Filed 12/11/18 Page 12 of 20 Page!D #: 2930

established Supreme Court holding that entitles Petitioner to habeas relief under these
circumstances. This claim must be rejected.
Ineffective Assistance of Counsel; Bar Discipline and Lack of Experience
Petitioner’s second claim is that his trial counsel, Jeananne Self, rendered ineffective
assistance of counsel (IAC) because she misrepresented her level of experience and skill
in defending violent felony cases. Petitioner presented this as his first claim in his post­
conviction application. Tr. 1853-56. He argued then and now that Ms. Self represented
that she was very experienced in cases of armed robbery. Petitioner and his mother retained
Self under the belief that Selfs legal experience and knowledge consisted of performance
in high-grade felony cases. Three years later, Ms. Self stated before the jury:
I’m not going to pretend that I’ve had another jury trial and I’m the best jury
attorney in the world because I’m not. This is my first jury trial. I’ve had
many bench trials, but this is my first jury trial. I’m not going to tell you that
I do violent crimes because I don’t. This is my first trial for a violent crime,
and I can tell you that if I didn’t believe in my client’s innocence, I would
not be standing before you today.
Tr. 1899-1900. Petitioner later filed a complaint against Ms. Self with the Louisiana
Attorney Disciplinary Board.

Self was instructed to return Petitioner’s file to him.

Petitioner represents that Ms. Self was later suspended because of his complaint, but his
was not the only complaint against her. The suspension order indicates that it was based
on-an-acknowledgment.by-Ms..Selfthat “she.failed to promptly refund an unearned fee to
a client and comingled client funds with personal funds in her trust account.” In re Self,
129 So.3d 1229 (La. 2013). There is no indication she was disciplined based on how she
conducted Petitioner’s trial.

Page 12 of 20

Case 5:15-cv-02834-EEF-MLH Document 36 Filed 12/11/18 Page 13 of 20 PagelD #: 2931

The trial court acknowledged that Petitioner asserted post-conviction claims for
IAC, including a contention that counsel misrepresented her criminal trial experience. The
court denied all the post-conviction IAC claims as repetitive, reasoning that an IAC claim
had already been reviewed on direct appeal and denied on the merits. Tr. 1976. The
appellate court wrote that Petitioner was applying for a writ and: “On the showing made,
the writ is denied.” Tr. 2173. The Supreme Court of Louisiana denied writs without
comment. Tr. 2210.
If a state court adjudicates a claim on the merits, habeas relief is available only if
that adjudication overcomes the high burden imposed by Section 2254(d). But for claims
that are not adjudicated on the merits in the state court, the federal court applies a de novo
standard of review. Hoffman v. Cain. 752 F.3d 430,437 (5th Cir. 2014). One example of
a non-merits adjudication where the de novo standard would apply is when the state court
denied the claim on procedural grounds, such as that the claim was already presented on
appeal. Landry v. Cain, 445 Fed. Appx. 817, 822 (5th Cir. 2011).
The state trial court denied this claim as repetitive (a non-merits ground), but the
appellate court denied it on the showing made with no further explanation. When searching
for the state court’s reasons, this court is to “look through” the Louisiana Supreme Court’s
“writ denied” denial to the last state court decision that does provide a relevant rationale.
Wilson V.-Sellers, 138 S.Ct. 1188-(2018),-The minimal explanation,by_the_state_appellate
court in this case, however, creates uncertainty as to whether it denied this claim on the
merits or perhaps because it agreed with the trial court that it was repetitive.

Page 13 of 20

Case 5:15-cv-02834-EEF-MLH Document 36 Filed 12/11/18 Page 14 of 20 PagelD #: 2932

Is a short denial “on the showing made” a denial on the merits, or is it an unexplained
decision that should be looked through? The Fifth Circuit recently stated: “It is not entirely
clear whether Wilson demands that we look to an earlier state opinion when the latest state
court to consider the issue did provide an opinion, but only a vague or terse one—the
Wilson Court was only directly concerned with a state court order “that was made without
any explanatory opinion” whatsoever. Thomas v. Vannoy. 898 F.3d 561, 568 (5th Cir.
2018). The issue need not be decided in this case because the IAC claim lacks merit even
under de novo review.
To establish IAC, Petitioner must demonstrate both deficient performance by his
trial counsel and prejudice resulting from that deficiency. Strickland v. Washington, 104
S.Ct. 2052, 2064 (1984). To show that his trial counsel’s performance was deficient, he
must show that his attorney “made errors so serious that counsel was not functioning as the
‘counsel’ guaranteed the defendant by the Sixth Amendment.” Id at 2064. To demonstrate
prejudice from his trial counsel’s deficient performance, he must show that his attorney’s
errors “were so serious as to deprive the defendant of a fair trial, a trial whose result is
reliable.” Id. Failure to establish either prong defeats the claim. Id.
“Mere conclusory allegations in support of a claim of ineffective assistance of
counsel are insufficient to raise a constitutional issue.” Green v. Johnson, 160 F.3d 1029,
-1042 (5th Cir. 1998).-Accordingly, Petitioner.must point to specific actions or inactions of

“ Courts

can ... deny writs of habeas corpus under § 2254 by engaging in de novo
review when it is unclear whether AEDPA deference applies, because a. habeas petitioner
will not be entitled to a writ of habeas corpus if his or her claim is rejected on de novo
review, see~§r2254(aV.’=Berghuis v. Thompkins, 130 S.Ct. 2250, 2265 (2010).
i

Page 14 of 20

'Case 5:15-cv-02834-EEF-MLH Document 36 Filed 12/11/18 Page 15 of 20 PagelD #: 2933

counsel that fell below the level of competence required by the constitution and that
prejudiced his trial.
A general contention that counsel was incompetent because she was later subjected
to unrelated discipline does not automatically render counsel’s prior work ineffective or
entitle her past clients to have their convictions vacated. Petitioner must demonstrate
specific deficient performance in his case that prejudiced the outcome. Bridge v. Lynaugh,
838 F.2d 770, 776 (5th Cir. 1988) (counsel later disbarred for cocaine felony; relief denied
absent specific examples of deficient performance); Brown v. Warden, 2014 WL 4287808,
*3 (W.D. La. 2014) (attorney later arrested on drug charges and disbarred); and Jones v.
Cain, 2009 WL 792205, *12 (E.D. La. 2009) (attorney disbarred six years after trial).
And trial counsel’s lack of experience trying felony jury trials is not grounds for
habeas relief.

The Supreme Court rejected a Strickland claim and stated that its

“conclusion is not undermined by the fact that respondent’s lawyer was young, that his
principal practice was in real estate, or that this was his first jury trial.” United States v.
Cronic, 104 S.Ct. 2039, 2050 (1984). “Every experienced criminal defense attorney once
tried his first criminal case.” Id. Similar claims were rejected in Yohey v. Collins, 985
F.2d 222,228 (5th Cir. 1993) (“an attorney can render effective assistance of counsel even
if he has had little prior experience in criminal cases”) and Johnson v. Cain, 2009 WL
2366385,-*-5 (E.-D.- La.-2009) (“Because.petitioner has not demonstrated that his counsel’s
inexperience actually resulted in representation which fell below the level required by the ..
Sixth Amendment, the state court’s decision denying this claim was neither contrary to nor

Page 15 of 20

Case 5:15-cv-02834-EEF-MLH Document 36 Filed 12/11/18 Page 16 of 20 PagelD #: 2934

involved an unreasonable application of clearly established federal law.”). These IAC
claims lack merit.
Ineffective Assistance of Counsel; Other Claims
Petitioner’s final claim presented in his habeas petition is that trial counsel rendered
ineffective assistance because she “failed to conduct an independent pretrial investigation
into the laws, facts, and circumstances involved in Petitioner’s case, incurring cumulative
errors” in violation of the Sixth and Fourteenth Amendments. This broad attack includes
some particular arguments that counsel’s performance was lacking. The arguments that
are adequately briefed will be discussed below.
Petitioner first argues that counsel’s failure to conduct independent pretrial
investigation gave rise to her failure to object to the State’s introduction of the DNA
evidence. Petitioner contends that counsel should have insisted upon the State presenting
testimony from testing analyst Mary Dukes, who had moved to Texas, rather than Audra
Williams. He argues that' Williams was not qualified to testify, and counsel had valid
objections to admission of the report and Williams’ testimony.
Counsel did initially object to admission of the report because it did not appear to
be the same report she received in discovery. It was clarified that the original certified
report had been introduced into evidence at a co-defendant’s trial, and the State had asked
the -lab to provide another-certified copy.ofithe .original report .forjtdmission into evidence
at Petitioner’s trial. That report states that it is a reprint of the original. Counsel compared
the two versions and admitted that there were no relevant differences, so she withdrew her
objection, and the report was admittedrTr. 1077-80.Page 16 of 20

'Case 5:15-cv-02834-EEF-MLH Document 36 Filed 12/11/18 Page 17 of 20 PagelD #: 2935

Petitioner makes many convoluted arguments as to why counsel should have been
able to succeed in excluding the evidence of the DNA report at his trial, but the record does
not support any clear-cut grounds for doing so. The report was provided during discovery
and in accordance with state statutes. It was identified by Ms. Williams, and she testified
at length about its contents. Petitioner’s Confrontation Clause objections were addressed
above and found to lack merit given the lack of certainty in the law. When the Louisiana
appellate court addressed those same issues on direct appeal under Bullcoming, MelendezDiaz, and related Louisiana decisions, it found that the admission of the report was not
error. Thus, there is no reason to believe that counsel could have raised an objection that
would have succeeded in excluding the DNA report and related testimony from Ms.
Williams, so this claim lacks merit.
Petitioner next argues that counsel should have contacted alibi witnesses and
subpoenaed them for trial. “[Cjomplaints of uncalled witnesses are not favored in federal
habeas corpus review because allegations of what the witness would have testified are
largely speculative.” Evans v. Cockrell, 285 F.3d 370, 377 (5th Cir. 2000). A petitioner
“must name the witness, demonstrate that the witness was available to testify and would
have done so, set out the content of the witness’s proposed testimony, and show that the
testimony would have been favorable to a particular defense.” Day v. Quarterman, 566
F73rd-527-538 (5th Cir, 2009).
Petitioner did not make this showing to the state court by affidavit or other evidence.
He identified witnesses Sherika Pratt, Demetrius Norman, and Jake Rivers, but he has not
presented evidence that those ^witnesses would have testified and how they would have
Page 17 of 20

Case 5:15-cv-02834-EEF-MLH Document 36 Filed 12/11/18 Page 18 of 20 PagelD #: 2936

provided a basis for a plausible alibi defense. Accordingly, this claim lacks merit. Cox v.
Stephens. 602 Fed. Appx. 141, 146 (5th Cir. 2015) (“Cox has failed, through affidavits or
otherwise, to demonstrate that these witnesses would have testified...”); Gray v. Epps, 616
F.3d 436, 443 (5th Cir. 2010) (petitioner failed to show uncalled witnesses were available
to testify where affidavits did not contain statement to that effect); and Evans, 285 F.3d at
377 (reversing habeas relief when no affidavits were presented from the alleged witnesses).
Sherika Pratt died before trial. Petitioner complains that defense counsel did not
preserve her testimony. Depositions and other methods of preserving testimony are rare in
criminal proceedings, so it is no surprise that counsel did not preserve the testimony of Ms.
Pratt or any other witness before trial. The fact that she did not take such an extraordinary
step, particularly absent evidence of what Ms. Pratt would have said, is not grounds for
habeas relief.
Finally, Petitioner raises a general complaint that counsel did not effectively crossexamine co-defendant Michael Smith and Detective Donnie Laney. He complains that
these witnesses testified that Petitioner had stopped working for a security company a few
days before the robbery, but proposed alibi witness Jake Rivers could have testified and
offered records to show that Petitioner was at work less than 16 hours before the robbery.
Petitioner has not demonstrated how the absence of this cross-examination or impeachment
fell-below the -level-of-providing competent counsel or. givesjriseJp_areasonable likelihood
that, had counsel acted accordingly, the verdict might have been different. Petitioner
attempts to explain in his lengthy memorandum how his work schedule and other matters
could have-provided^an alibi defense^ but the explanation is so:jumbled that it gives no
Page 18 of 20

• Case 5:15-cv-02834-EEF-MLH Document 36 Filed 12/11/18 Page 19 of 20 PagelD #: 2937

reason to believe that any juror would have discounted the DNA evidence, the testimony
of Michael Smith, and the other evidence that pointed to Petitioner’s guilt. Petitioner’s
arguments do not provide a basis for habeas relief from his armed robbery conviction.
Accordingly,
It is recommended that Petitioner’s petition for writ of habeas corpus be denied.
Objections
Under the provisions of 28 U.S.C. § 636(b)(1)(C) and Fed. R. Civ. P. 72(b), parties
aggrieved by this recommendation have fourteen (14) days from service of this report and
recommendation to file specific, written objections with the Clerk of Court, unless an
extension of time is granted under Fed. R. Civ. P. 6(b). A party may respond to another
party’s objections within fourteen (14) days after being served with a copy thereof.
Counsel are directed to furnish a courtesy copy of any objections or responses to the
District Judge at the time of filing.
A party’s failure to file written objections to the proposed findings, conclusions and
recommendation set forth above, within 14 days after being served with a copy, shall bar
that party, except upon grounds of plain error, from attacking on appeal the unobjected-to
proposed factual findings and legal conclusions accepted by the district court.

See

Douglass v. U.S.A.A.. 79 F.3d 1415 (5th Cir. 1996) (en banc).
—An appeal may not be taken to the courtof appeals from a finaLorderJn a proceeding^
under 28 U.S.C. § 2254 unless a circuit justice, circuit judge, or district judge issues a
certificate of appealability. 28 U.S.C. § 2253(c); F.R.A.P. 22(b). Rule 11 of the Rules
Governing Sectiom2254Proceedingsfor the U.S. District Courts requires the district court
Page 19 of 20

’ JCase 5:15-cv-02834-EEF-MLH Document 36 Filed 12/11/18 Page 20 of 20 PagelD #: 2938

to issue or deny a certificate of appealability when it enters a final order adverse to the
applicant. A certificate may issue only if the applicant has made a substantial showing of
the denial of a constitutional right. Section 2253(c)(2). A party may, within fourteen (14)
days from the date of this Report and Recommendation, file a memorandum that sets forth
arguments on whether a certificate of appealability should issue.
THUS DONE AND SIGNED in Shreveport, Louisiana, this 10th day of December,
2018.

Mark L. Hornsby
U.S. Magistrate Judge

Page 20 of 20

Additional material
from this filing is
available in the
Clerk's Office.

